DOE/IG-0462




               AUDIT
              REPORT


                               NATIONAL LOW-LEVEL WASTE
                                 MANAGEMENT PROGRAM




                                     FEBRUARY 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                         February 24, 2000


MEMORANDUM FOR THE SECRETARY


FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "National Low-Level Waste Management
                Program"


BACKGROUND

Under the Low-Level Radioactive Waste Policy Act of 1980 (Act), States were responsible for
providing for disposal of commercial low- level radioactive waste. They were encouraged to
enter into compacts to facilitate the development of new disposal sites. The Department of
Energy (Department) was required to provide technical assistance to support States and compact
regions in developing such facilities. In 1990, the Department was also directed by the Congress
to provide assistance in establishing an independent, self-directed association through which
States and compact regions could accomplish low- level waste disposal objectives.

Since 1982, the Department has spent over $80 million to provide technical assistance to States
and compact regions. The Department has provided $5.4 million, since 1990, to fund the Low-
Level Radioactive Waste Forum, an independent association for information exchange between
State and compact officials.

Pursuant to a request from an official in the National Low-Level Waste Management Program,
the Office of Inspector General reviewed the program to determine whether the assistance
provided to States and compact regions supports the development of low- level waste disposal
facilities.

RESULTS OF AUDIT

The Low-Level Waste Program, as envisioned by the Congress in 1980, has not come to fruition:

•   No permanent disposal site has been developed by the States and compact regions,

•   As traditional disposal efforts have stalled in every State and compact region, there has been a
    growing interest in pursuing alternative waste management techniques, and

•   The Department provided assistance to States that was not fully consistent with the Act's
    objectives, in an attempt to adapt to the circumstances facing the National Low-Level Waste
    Management Program.
                                             2


In response to State requests, the Department shifted the emphasis of its technical
assistance from developing permanent disposal facilities to assured isolation of low- level
waste. In assured isolation, the waste is stored in temporary aboveground facilities and is
easily retrievable. The Nuclear Regulatory Commission has stated that assured isolation,
by its nature, can only be considered temporary storage. This is in contrast to the
permanent disposal objectives of the Act. As such, there is some question as to whether
the technical assistance provided by the Department is consistent with congressional
intent.

The audit further disclosed that the Department has provided assistance to the
Radioactive Waste Forum beyond the duration envisioned by the Congress. The
Department’s role was limited to providing initial funding for Forum activities until the
States and compacts could develop independent means of financing. Yet, the States and
compacts have not provided any funds for Forum activities despite annual financial
sponsorship by the Department. This indicates that the States and compacts do not
consider the Waste Forum a priority. Continued Federal funding of the Forum at current
rates through Fiscal Year 2006 is expected to cost $4.6 million.

In conducting this audit, the Office of Inspector General recognizes that issues associated
with the storage and disposal of commercial low- level waste are complex. We also
understand the Department’s sensitivity to the interests of its stakeholders, including the
States. Recognizing these issues in the context of our concern that Federal taxpayer
funds be appropriately expended, we recommended that the Assistant Secretary for
Environmental Management clarify the intent of the Congress regarding the expend iture
of funds in developing storage sites. We also recommended that the Department
discontinue funding for the Forum and technical assistance until clarification is obtained.
We noted that Congress did not provide funding for Forum activities or for the technical
assistance program in Fiscal Year 2000. We were informed that Environmental
Management, as a consequence, is considering using available Fiscal Year 2000 funding
for these activities.

MANAGEMENT REACTION

The Assistant Secretary for Environmental Management disagreed with the audit
conclusions and recommendations, indicating that most of the substantive issues arose
from differing interpretations of the Department and States' duties under the Act.
Management also questioned the conclusion in the report regarding assured isolation.
Management believes that it is appropriate and legally defensible for the Department to
provide technical assistance to States and compact regions on assured isolation, as well
as support to States through the grant process for the Low-Level Waste Forum. A more
detailed summary of management's comments and our response are included in the
Management Reaction and Auditor Comments sections of this report.

cc: Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's National Low-Level Waste
Management Program


TABLE OF
CONTENTS

                   Overview

                   Introduction And Objective ................................................................... 1

                   Conclusions And Observations ............................................................. 2


                   Departmental Support For Waste Disposal Facilities

                   Details Of Finding ................................................................................. 4

                   Recommendation And Comments ........................................................ 7


                   Funding Of The Low-Level Radioactive Waste Forum

                   Details Of Finding ................................................................................. 9

                   Recommendation And Comments ...................................................... 11


                   Appendices

                   1. Scope And Methodology ............................................................... 12

                   2. Related Audit Reports ................................................................... 13

                   3. Nuclear Regulatory Commission Position Letter .......................... 14
Overview

INTRODUCTION AND   The Low-Level Radioactive Waste Policy Act of 1980 (Act), as
OBJECTIVE          amended, declared that States were responsible for providing for the
                   disposal of commercial low- level radioactive waste and encouraged
                   States to enter into compacts (interstate agreements) to fulfill this
                   responsibility. Ten compact regions consisting of 44 States were
                   formed and approved by the Congress. The six other States remained
                   unaffiliated with any compact.

                   Under the Act, the Department was required to provide States and
                   compact regions with technical assistance to support them in fulfilling
                   their responsibilities to develop new low- level waste disposal facilities.
                   To carry out its responsibility, the Department's Office of
                   Environmental Management assigned this effort to the National Low-
                   Level Waste Management Program (National Program) at the Idaho
                   National Engineering and Environmental Laboratory. The National
                   Program provided technical assistance by holding workshops, fulfilling
                   State requests for specific assistance, developing technical documents,
                   distributing general information on low-level waste, and providing
                   technical coordination for organization conferences. Since 1982, the
                   Department has spent over $80 million to provide States and compact
                   regions various types of technical assistance.

                   In 1990, the Department was also directed by the Congress to provide
                   organizational assistance in establishing an independent, self-directed
                   association through which States and compacts could accomplish their
                   site disposal objectives. The Department was to initially fund an
                   association until the States could develop a means for independent
                   funding. A 3- year grant was used to provide this funding for the Low-
                   Level Radioactive Waste Forum (Forum). The Forum consists of State
                   and compact officials appointed to exchange information related to the
                   development of new waste sites. As of December 1999, the Forum has
                   received $5.4 million from the Department with no funds provided by
                   the States or compact regions.

                   Pursuant to a request from an official of the National Program, the
                   Office of Inspector General reviewed the program to determine whether
                   the assistance provided to States and compact regions supported the
                   development of low- level waste disposal facilities.




Page 1                                                          Introduction And Objective
CONCLUSIONS AND   The assistance provided by the Department to States and compact
OBSERVATIONS      regions did not fully support the development of low- level waste
                  disposal facilities. Specifically, the Department funded assistance to
                  States and compact regions for alternative waste manage ment
                  methods, such as storing low- level waste, which were not covered by
                  the Act. In addition, the Department continued to finance Forum
                  activities beyond the initial funding responsibilities envisioned by
                  Congress.

                  Although traditional disposal efforts have stalled in every State and
                  compact region, there has been a growing interest from several States
                  in pursuing alternative management techniques to traditional disposal.
                  Initial efforts by States and compact regions to build disposal facilities
                  incurred numerous barriers that hindered progress, including public
                  and legislative opposition. Also, because existing disposal capacity
                  was available, there was little incentive for States or compact regions
                  to establish new waste disposal facilities. By the beginning of 1997,
                  all unaffiliated States had stopped their waste disposal siting efforts.
                  In early 1999, all compact States had stopped further progress on their
                  disposal siting efforts. As of October 1999, no disposal facilities for
                  commercial low-level radioactive waste had been developed or built.

                  Starting in 1996, the Department shifted its technical assistance from
                  developing low- level waste disposal facilities to providing assistance
                  to States and compact regions on assured isolation as a low- level
                  radioactive waste management technique. In assured isolation, the
                  waste remains available for inspection and easily retrievable in
                  temporary aboveground storage facilities. However, the assured
                  isolation concept does not meet the purpose and intent of the Act,
                  which required waste to be placed in permanent isolation. The Nuclear
                  Regulatory Commission (NRC) has stated that assured isolation, by its
                  very nature, could only be considered a temporary facility.

                  Despite the position of the NRC, the Department's National Program
                  Office has provided funding for assured isolation. Specifically, it has
                  published five reports for vario us States on the cost and use of this
                  alternative to permanent disposal. In total, the Department has spent
                  $9.1 million since 1997 on this program, including funding for studies
                  on assured isolation. Additionally, the National Program's life-cycle
                  cost plan estimated that approximately $22 million would be spent
                  through Fiscal Year 2006 to provide assistance to States, including
                  assured isolation technical assistance.




Page 2                                                  Conclusions And Observations
         The Department has also provided organizational assistance to the
         States beyond its responsibilities stipulated by the Congress. The
         Department was only to provide initial funding for Forum activities
         until the States and compacts could develop an independent means of
         financing. However, the Forum has relied on the Department for 100
         percent of its funding. Grant funding has grown from about $395,000
         in 1990 to about $657,000 in 1999. The State and compact membership
         has not provided funds for any of the Forum's initiatives. This indicates
         to us that the Forum is not a State nor compact priority.

         The Congress did not provide funding in Fiscal Year 2000 for the
         technical assistance program or Forum activities, except for funds to
         maintain Federal databases on waste disposal information. The
         Assistant Secretary for Environmental Management should clarify with
         appropriate congressional committees the intent of the Congress
         regarding the expenditure of funds in developing storage sites prior to
         authorizing additional work in this area. Furthermore, the Assistant
         Secretary should discontinue funding for technical assistance not
         related to permanent disposal until clarification is obtained.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.

                                              (Signed)

                                       Office of Inspector General




Page 3                                         Conclusions And Observations
Departmental Support For Waste Disposal Facilities

Technical Assistance       The Department's responsibilities to provide technical assistance to
Requirements               States and compact regions were established in the Low-Leve l
                           Radioactive Waste Policy Act, as amended. The Act stated that the
                           Department shall provide technical assistance including, but not limited
                           to, the following:

                                  1) technical guidelines for site selection;
                                  2) alternative technologies for low- level radioactive waste
                                     disposal;
                                  3) volume reduction options;
                                  4) management techniques to reduce low- level waste
                                     generation;
                                  5) transportation practices for shipment of low-level wastes;
                                  6) health and safety considerations in the storage, shipment,
                                     and disposal of low- level radioactive wastes; and
                                  7) establishment of a computerized database to monitor the
                                     management of low- level radioactive waste.

                           The Senate Energy Committee report accompanying this Act described
                           the types of activities for which the Department was responsible. It
                           stated that these responsibilities included continued technical assistance
                           to States and compact regions for the development of new low- level
                           radioactive waste disposal facilities (emphasis added). Disposal was
                           defined as the "permanent isolation" of low- level waste.


                           Despite the Act's requirement, the Department provided technical
Technical Assistance For
                           assistance to States and compact regions for alternative methods of
Temporary Storage
                           storing low- level waste that were not considered permanent disposal
                           technologies. Since 1996 the Department has provided technical
                           assistance for a new concept to manage low- level waste termed
                           "assured isolation."

                           The Department's National Program described assured isolation as an
                           alternative approach to safe, long-term management of low-level waste.
                           Assured isolation offers an alternative to permanent underground
                           disposal whereby the facility can be physically inspected, monitored,
                           and maintained for many years. The Idaho Operations Office reported
                           that as many as eight States have participated in requests for technical
                           assistance on assured isolation including the issuance of reports and
                           studies from 1995 through 1999.




Page 4                                                                           Details Of Finding
                     In August 1999, the Department issued its latest report comparing low-
                     level waste disposal to assured isolation. The report acknowledged that
                     despite State and compact region endeavors to develop new low- level
                     radioactive waste disposal facilities, no suc h facility has been licensed
                     and actually constructed. This report also indicated that assured
                     isolation facility costs were estimated to be 50 to 75 percent higher than
                     those of a disposal facility. In addition, the report recognized that
                     assured isolation did not function like a disposal facility.

                     Even as States have continued to receive technical assistance from the
                     Departme nt, they were concerned whether the definition and licensing
                     criteria for assured isolation would meet the intent and legal
                     requirements of their compact obligations to build a disposal facility.
                     For example, in August 1999, a State Radiation Advisory Board
                     recommended that a definition be developed so the concept of assured
                     isolation satisfied the States' intent to isolate waste materials, even
                     though this concept is different from underground disposal. The Board
                     stated that it was important that assured isolation was not ruled
                     unacceptable due to a definition of disposal that does not consider
                     aboveground storage options.

                     To clarify the regulatory requirements for an assured isolation facility,
                     we discussed this issue with NRC personnel. A NRC senior project
                     manager stated that NRC had not established a license requirement for
                     an assured isolation facility. Also, the NRC concluded that assured
                     isolation was temporary storage, not disposal. This position was
                     articulated in a March 1999 letter to a Texas State Representative (See
                     Appendix 3). The Chairman of the NRC stated that "We do not
                     consider assured storage to be the equivalent of permanent disposal of
                     LLW (Low-Level Waste). By its very nature, assured storage is
                     considered a temporary facility."


                     To understand management's rationale for providing technical
Program Management   assistance for assured isolation, we discussed this issue with
                     Environmental Management officials. A representative from the Office
                     of Waste Management stated that the Office of Environme ntal
                     Management supports the States in the concept of assured isolation, and
                     if the States pursue this concept the Department wo uld support them
                     from a national perspective. The National Program Manager stated that
                     the Department was chartered under the Act to come up with alternative
                     approaches for the disposal of low- level waste. The Program Manager




Page 5                                                                     Details Of Finding
                     further indicated that while the Act listed certain types of technical
                     assistance that were to be provided by the Department, assistance was
                     not limited to the listed items. Based on this interpretation, the
                     contractor developed and promoted the assured isolation concept, even
                     though it was not permanent disposal.

                     The Department's shift in technical assistance emphasis was a reaction
                     to the States' inability to overcome barriers to disposal site selection.
                     In a recent program funding profile, the Department recognized that
                     States and compacts had suspended their efforts to site and construct
                     new disposal sites because of these conditions. The National Program
                     Office adapted to these changes by increasing support to State
                     regulatory agencies for radioactive waste related issues and reducing
                     assistance for new site development activities. Also the National
                     Program increased assistance to State policy makers to aid them in
                     evaluating policy options.

                     With this reduction in site development activities, we asked the
                     National Program Manager why the program should continue if no
                     State is attempting to establish a new facility. The manager said that
                     even though States had stopped their site development efforts, program
                     staff continued to respond to requests for other types of technical
                     assistance. For example, they received many requests for additional
                     information on licensing and regulatory issues. They also received
                     increased requests for technical assistance in the areas of tracking
                     waste, providing personnel support for a State task force working on
                     options to waste disposal, and storing waste by those who generate it.
                     However, assistance for waste generators was obtained through the
                     compacts since the Program cannot provide assistance directly to them.

                     The Program Manager added that personnel anticipated additional
                     requests to provide workshops on waste storage issues such as costs if
                     States store their waste, financial liabilities to States, and continuing
                     requests for help with licensing and data manage ment functions. In
                     addition, the Program maintains information management systems that
                     keep data for all the disposal operators and prepares the Department's
                     annual report to the Congress required by the Act.


                     Continued Departmental funding of the program for Fiscal Years 2000
Need For Continued   through 2006, including assistance for assured isolation, is expected to
Funding              cost approximately $22 million. Beginning in Fiscal Year 2000, the




Page 6                                                                    Details Of Finding
                 Department planned to start downsizing the National Program.
                 However, Congress did not provide any funding in Fiscal Year 2000 for
                 the technical assistance program except for $595,000 to fund Federal
                 database maintenance. The Assistant Secretary for Environmental
                 Management chose to use $1.7 million of projected carryover money to
                 continue funding National Program activities, including assured
                 isolation, in Fiscal Year 2000. We believe further expenditure of
                 Departmental funds for assistance on temporary storage projects is
                 inconsistent with the intent of Congress.


                 Because no State or compact region is developing a permanent disposal
RECOMMENDATION
                 facility, we recommend that the Assistant Secretary for Environmental
                 Management clarify with appropriate congressional committees the
                 intent of Congress regarding the expenditure of funds in developing
                 storage sites prior to authorizing additional work in this area.
                 Furthermore, the Assistant Secretary should discontinue funding for
                 technical assistance not related to permanent disposal until clarification
                 is obtained.


                 The Assistant Secretary for Environmental Management indicated that
MANAGEMENT       management disagreed with the audit conclusions and recommendations.
REACTION         Management also stated that its interpretation of the Act permitted the
                 Department to fund a range of technical assistance activities related to
                 the management of low-level radioactive waste. Ba sed on this
                 interpretation and belief that Congress did not intend for the Department
                 to return for further guidance every time circumstances changed,
                 management did not see any need to seek clarification from the
                 authorizing committee. Management further indicated that the Nuclear
                 Regulatory Commission had not issued a formal policy on assured
                 isolation.

                 Management also provided additional comments during the exit
                 conference. They pointed out that the assured isolation concept is an
                 evolving issue among the States. However, carryover funds will not be
                 used to conduct any additional studies on assured isolation. They stated
                 that the Office of Environmental Management was using the carryover
                 amounts in Fiscal Year 2000 to fund the Forum and National Program
                 closeout activities.




Page 7                                               Recommendation And Comments
AUDITOR    We disagree that alternative storage technologies, such as assured
COMMENTS   isolation, are consistent with congressional intent to promote the
           development of low- level radioactive waste disposal sites. With
           passage of the Act, Congress clearly intended for the Department to
           provide States and compact regions the technical assistance they needed
           to provide for the disposal of waste. Disposal is defined as the
           permanent isolation of radioactive waste, not the safe storage of waste.
           We recognize that the Act gave the Secretary the latitude to determine
           which States and compact regions require technical assistance, but such
           assistance is limited to waste disposal projects.

           Beyond this disagreement, management's response to the draft audit
           report did not recognize that after nearly 20 years of technical
           assistance to States and compact regions, no State or compact region
           has established a low-level waste disposal facility. The inability to
           establish disposal sites raises a concern about the effectiveness and
           desirability of providing additional technical assistance, even as States
           and compact regions persist with requests for the Department to spend
           additional resources.

           Furthermore, for Fiscal Year 2000, Congress chose not to directly
           appropriate any additional funds for the National Low-Level
           Radioactive Waste Management Program, except for funding of Federal
           database management. The House Appropriations Committee, in
           choosing not to provide additional funds, stated that "Over $80,000,000
           has been provided for the low-level waste program over the past two
           decades, and State expertise is now mature enough that Federal funding
           is no longer required."

           With reference to the Nuclear Regulatory Commission statement, the
           audit report does not present the NRC statement as policy. It clearly
           identifies the source of the statement on assured isolation as a letter
           from the NRC Chairman to a Texas State representative. We consider
           the Chairman an authoritative source in describing the NRC position on
           assured isolation.




Page 8                                         Recommendation And Comments
Funding Of The Low-Level Radioactive Waste Forum

State And Federal          Departmental responsibility to initially fund the Low-Level Waste
Funding Responsibilities   Forum was established by Congress. In a committee report attached to
                           the 1990 Energy and Water Development Appropriations Bill, Congress
                           recognized the need to establish an independent State forum that would
                           promote an effective and efficient system for management and disposal
                           of low- level waste. It also recognized that disposal was a State
                           responsibility (emphasis added) with the Department providing initial
                           assistance to the States.

                           To support this effort, the Committee recommended the following:

                                  "…that during the fiscal year 1990, the Department of
                                  Energy assist the states and compacts in organizing an
                                  independent, self-directed association through which the
                                  States and compacts may accomplish these objectives.
                                  The DOE should provide organizational assistance to the
                                  extent requested by the States and compacts, in
                                  establishing such an association, and should provide
                                  initial funding (emphasis added) for the association
                                  until the States and compacts can develop a means for
                                  independent funding."


                           The Department continued to fund the Low-Level Radioactive Waste
Continued Federal          Forum beyond requirements intended by Congress. Although the
Funding                    Congress directed the Department to provide only initial funding, the
                           Forum has relied upon the Department for 100 percent of its finances
                           since 1990. This funding has been provided through grant awards
                           totaling $5.4 million. Since 1990, annual funding has increased from
                           $395,387 to $656,780 in 1999 as shown in the table below.


                                         Government Funding of the Forum

                                        800

                                        600
                                Dollars
                                        400
                                 (000)
                                        200

                                          0
                                              1990

                                                     1991

                                                            1992

                                                                   1993

                                                                          1994

                                                                                 1995

                                                                                        1996

                                                                                               1997

                                                                                                       1998

                                                                                                              1999




Page 9                                                                                                Details Of Finding
                        During the same period (1990-1999), the frequency of Forum meetings
                        decreased. Originally, the Forum held four meetings a year. As State
                        efforts to site low- level disposal facilities diminished, the number of
                        meetings held in 1997 and 1998 dropped to three per year with only
                        two meetings held in 1999. Despite this change, there was not a
                        proportional decrease in Government funding.


Evaluation Of Funding   The Department had not formally evaluated the effectiveness of
Requests                continued funding for Forum activities and the accuracy of information
                        supporting Forum funding.

                        In its initial evaluation of the grant award, the Department stated that it
                        expected Federal support for State and compact low- level waste
                        activities to be significantly reduced after 1992. The evaluation report
                        indicated that it would be prudent for the States and compacts to
                        establish an organization entity that could foster interstate cooperation
                        and was capable of managing funds. The report pointed out that the
                        Department had notified State and compact officials that its role in
                        assisting them was transitional.

                        Personnel in the National Program office stated that little, if any,
                        attempt had been made by States and compact commissions to provide
                        funding for Forum activities. The only financial support provided by
                        States was for travel expenses. At its February 1998 meeting, the
                        executive committee of the Forum notified the Department that it was
                        unable to incorporate and become self- funded. As a result, the Forum
                        would continue to seek Departmental funding through the grant
                        process.

                        State organizations have recently requested the Department to continue
                        funding the grant based upon the Forum's contribution to the States'
                        "…progress toward finding permanent disposal locations for low- level
                        radioactive waste." Despite this assertion, no State was actively
                        attempting to site a facility for disposal of its low- level waste.


                        Departmental funds for the Low-Level Waste Forum represent about
                        20 percent of the total program expenditures over the last 2 years. This
Future Funding          represents a significant continuing reduction in the funds available to
Requests                perform National Program operations. If the Department continues to
                        fund the Forum at 1999 levels, an additional $4.6 million will be spent
                        through the remaining life of the program. The Congress did not




Page 10                                                                       Details Of Finding
                 provide funding in Fiscal Year 2000 for Forum activities. However, the
                 Assistant Secretary for Environmental Management is considering
                 using available carryover funds in Fiscal Year 2000 for Forum
                 activities.


RECOMMENDATION   Given the States' unwillingness to fund the Low- Level Radioactive
                 Waste Forum, we recommend that the Assistant Secretary for
                 Environmental Management discontinue funding this activity.


                 The Assistant Secretary for Environmental Management did not
MANAGEMENT
                 provide specific comments on the audit recommendation concerning
REACTION
                 funding for the Low-Level Waste Forum. Management stated in its
                 general response to the draft report that "…states have routinely
                 identified the Low-Level Waste Forum as being the highest priority for
                 DOE support to the states." During the exit conference, management
                 noted that the Department's decision to fund the Forum in Fiscal Year
                 2000 was consistent with past budget requests for Forum funding.


                 States have not viewed the Low-Level Waste Forum to be enough of a
AUDITOR          priority to provide any funding for its activities since it was established.
COMMENTS         In this regard, the Forum's executive committee informed the
                 Department in February 1998 that it was unable to become self- funded
                 and would continue to seek Departmental money through the grant
                 process. The unwillingness of the States to fund the Forum raises
                 serious questions about whether the Forum is the highest State priority
                 for Departmental support as suggested in management's response. In
                 addition, continued funding of the Forum is inconsistent with
                 congressional and Departmental positions that the Department's role in
                 supporting the Forum was transitional.




Page 11                                              Recommendation And Comments
Appendix 1

SCOPE         The audit was performed from July through November 1999 at
              Department Headquarters in Washington, DC, and Germantown, MD,
              and the Idaho Operations Office in Idaho Falls, Idaho.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed Federal and Departmental regulations and operating
                  policies and procedures relating to the management of the
                  Department's Low-Level Radioactive Waste Manage ment Program;

              •   Reviewed applicable laws and regulations, including the Low-Level
                  Radioactive Waste Policy Act of 1980, as amended, and the Energy
                  and Water Development Bill of 1990;

              •   Held discussions with personnel from the Office of Waste
                  Management responsible for directing the Program;

              •   Interviewed Department and contractor personne l responsible for
                  managing the Program at the Idaho Operations Office;

              •   Reviewed and evaluated contractor files used to support the
                  Program;

              •   In accordance with the requirements of the Government
                  Performance and Results Act reviewed performance measures; and

              •   Held a discussion with personnel from the Nuclear Regulatory
                  Commission to determine licensing procedures for low- level waste
                  disposal facilities.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would no t necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objective.

              We held an exit conference with officials from the Office of the Deputy
              Assistant Secretary for Waste Management on February 11, 2000.




Page 12                                                     Scope And Methodology
Appendix 2

    AUDIT REPORTS RELATING TO LOW-LEVEL RADIOACTIVE WASTE MANAGEMENT


•   Disposal of Low-Level and Low-Level Mixed Waste, (DOE/IG-0426, September 3, 1998). The
    Department generally did not dispose of low- level and mixed waste as cost-effectively as possible.
    Most Department facilities stored large quantities of waste on-site, and when disposals of low- level
    waste were made, they were often not cost effective.

•   Low-Level Radioactive Waste: States Are Not Developing Disposal Facilities, General Accounting
    Office (GAO/RCED-99-238, September 17, 1999). States, acting alone or within compacts of two or
    more States, have collectively spent almost $600 million over the last 18 years attempting to find and
    develop about 10 sites for disposing of commercially generated low- level radioactive waste. None of
    the States or compacts has successfully developed a new disposal facility.




Page 13                                                                              Related Audit Reports
Appendix 3




Page 14      Nuclear Regulatory Commission
                              Position Letter
Page 15   Nuclear Regulatory Commission
                           Position Letter
                                                                           IG Report No. DOE/IG-0462

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or yo u may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative address:

          U.S. Department of Energy Office of Inspector General, Home Page

                                 http://www.ig.doe.gov

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
